 DRG 121: CIRCULATORY DISORDERS

     WITH ACUTE MYOCARDIAL

 INFARCTION AND CARDIOVASCULAR

         COMPLICA TIONS





  1t-lIr"Ia




OFFICE OF INSPECTOR GENERAL
OFFICE OF ANALYSIS AND INSPECTIONS
                                     AUGUST 1989
     DRG 121 CIRCULATORY

     DISORDERS WITH ACUTE

   MYOCARDIAL INFARCTION AND

 CARDIOVASCULAR COMPLICATIONS





                 RICHARD P. KUSSEROW
                  INSPECTOR GENERAL




OAI- 12-801210                         AUGUST 1989

                             Contract Information



Contractor                         Project Officer


BOTEC Analysis Corporation         David Hsia, J. D., M. D., M.
36 JF Strt                         Health Car Brach
Cmnbridge,    02138                Offce of Inspector General
                                   330 Independence Ave., SW
                                   Washington , D. C. 20201


Contract
fUS- 100- 88- 0019
                                 EXECUTIVE SUMMARY


BACKGROUND

Under the prospective payment system, the diagnosis related group (DRG) 121 represents
hear attcks with complications. Prelinar data from the National DRG Validation Study
suggeste that discharges   incorrctly biled as   DRG 121 comprise a disproportonate share of
the Medcar    overpayments attbutable to   disease codng errrs.

FINDINGS

             Of discharges biled as DRG 121, 17. 7 percent should have grouped to a
             dierent DRG. Ths errr    rate approximates that for al DRGs, as measured in
             the National DRG Valdation Study.

             Of these elTors, 89. 3 percent overpaid the   hospita.   This rate significantly
             exceed the 59. 6 percent for all DRGs.

             Reasons for elTors include physicians mis-specification of a naIative      diagnosis,
              other, " and resequencing in that order. Miscodng caused no DRG
             mis-assignents.

RECOMMENDATIONS

             The Health Car Financing Admnistrtion (HCF         A) should diect the peer
             review organzations (PROs) to review DRG 121 bils for codg accurcy.

             The HCF A should diect the PROs to educate physicians and hospitas          about the
             diagnoses that properly grup to DRG 121.

The HCFA disagrees with the fist recommendation      and agres with     the second. The Offce of
Inspector Genera modfied the drt of this report to accommodte the HCFA comments, but
continues to believe that implementation of these recommendations could recover $42. 2 mi-
lion annually.
                                                                                                         ........



                                                                                             TABLE OF CONTENTS

  EXECUTIVE SUMMARY. 





  INTRODUCTION
       Background. . . . . .
              PPS vuerabilties

              Clai processing. . . . . .
              DRG 121 . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .



              Methodology. . . . . .

  FINDINGS
              Smnple charteristics. 

             DRG assignent errrs. .
             Dirtion of errrs. .
              Soure of elTors . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .
             Reasons for assignment errrs

             Financial effects
             Corrct DRG assignments. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .

. RECOMMENDATIONS

 Appendix A- I: DRG 121 discharges frm                                                                  al PPS hospitas             . . . . . . . . . . . . . . . . . . . . . . . A-

 Appendix A-2: DRG 121 smnpling frame                                                                                                                                        . . A-

 Appendix A-3: DRG 121 hospita demogrphy . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . A-

 Appendix A-4: DRG 121 hospita demogrphy comparson . . . . . . . . . . . . . . . . . . . . . . . A-

 Appendix                                   S:                DRG 121 patient demography. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . A-

Appendix A-6: DRG 121 patient demography comparson . . . . . . . . . . . . . . . . . . . . . . . . A-

Appendix B- 1:                                             DRG 121 assignment errrs. .                        . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . B-




Appendix B- 2:                                            DRG 121 assignment elTors comparson. . .                                                                        . . . B-

Appendix B- 3:                                            DRG 121                       assignment errrs by   patient demography. . . . . . . . . . . . . . . . . B-
Appendix C-                                I: DRG 121 diection of elTor                                                  . . . . . . . . . . . . . . . . . . . . . . . . . . . . C-

Appendix C- 2:                                           DRG 121 of diection of elTor comparson . . . . . . . . . . . . . . . . . . . . . . . . C­
                                                     ......................
                                                            ....... ........ .....
                                                     . . . . . . . . . . . . . . .... . . . . . . . . . . . . . . . . . . .




Appendix C- 3: DRG 121 diection of elTor by patient demogrphy . . . . . . . . . . . . . . . . . C-

Appendix D- l: DRG 121 hospita deparent                 makg elTor .......................                                     D-



Appendix D- 2: DRG 121         hospita   deparent makg elTor comparson                              . . . . . . . . . . . . . D-

Appendix D- 3: DRG 121         hospita   deparent makg elTor by patient demogrphy                                     . . . . D-

Appendix E-    l: DRG 121 reasons for elTors                                                      . . . . . . . . . . . . . . E-

Appendix E- 2:     DRG 121 reasons for elTors by hospita demography . . . . . . . . . . . . . . . . E-

Appendix E-3:      DRG 121 reasons for elTors comparson . . . . . . . . . . . . . . . . . . ; . . . . . . . E-

Appendix E-4: DRG 121 reasons for DRG assignment elTors by patient demography. . . E-

Appendix F- l: DRG 121 corrted relative weights                                                                     . . .. . F-

AppendixF- 2: DRG 121 corrcted reimbursement ..............................                                                    F-


AppendixF-3: DRG 121 estiate overpayments ...............................                                                      F-


Appendix G- l:     Major Diagnostic Categories for discharges incolTectly
                   assigned to DRG 121 .........................................                                               G-


Appendix G- 2: DRGs fruently miscoded to DRG 121                         ............... . . . . . . . . . . . G-


Appendix H- l: DRG 121 clical           incidents                                                                             . H-

Appendix H- 2: DRG 121 clinical incidents comparson . . . . . . . . . . . . . . . . . . . . . . . . . . H­
                                     INTRODUCTION


Background

On October 1, 1983, the Health Car Financing Admistrtion (HCFA) began implementing a
new system of payment for inpatient hospita servces under the Medicar program The new
prospective payment system (PPS) replaced the cost- based reimbursement system. Congrss
mandated ths change because of rapid growth in health care costs, parcularly inpatient ex­
penses under Medicare.

Under PPS, hospitas reeived a pre-established payment for each discharge, based upon the
diagnosis related group (DRG) to which the discharge is assigned. The PPS classified dis­
charges into clicaly coherent grups    which used   simiar mnounts of hospital resources,
based on varables such as diagnosis; evaluation and tratment procedurs; and     patient age,
sex, and discharge status. Each of the 475 DRGs had an associate relative weight, which rep­
resented the average cost for hospita care provided to patients with diagnoses grouping to that
DRG as a proporton of the cost of the average patient The hospita received this payment, in­
dependent of the actual lengt of hospitazation or cost of treatment for the individual patient.
With cert    exceptions, the hospita retaned any surlus from patients consumig less than
the expected mnount of resources, and suffered losses on those patients consuming more.

The shit from cost- based,retrospective reimburement to prospective payment constituted
one of the most drmntic changes in health car reimburement since the creation of Medicare.
A fied paymnt per dischare induced hospitas to implement economies and reduce unneces­
sar servces. The tota    payments to the hospitas provided the smne financial resources for
patient car. In effect, PPS revers the financial incentives for hospitas. Where the cost-
reimbursement system rewar longer hospita stays and more costly tratments, PPS
rewared earlier discharges and less costly proedures. One of the first consequences of the
new payment system was a drop in average length of hospita stay for Medicar patients.

PPS vulnerabilties
The advent ofPPS crated new opportnities for manipulation or " gamng " to increase hospi­
ta revenues frm Medcar patients. To protect the integrty of PPS and maitain quality of
care Congress established the peer review organizations (PROs) to monitor hospita activities.

The Offce of the Inspector Genera (OIG) conducted The National DRG Valdation Study
(NDRGVS) to surey the genera accurcy of DRG assignment and qualty of car performed
by hospitas under PPS. Its examnation of 700 medical records and established that assign­
ment errrs resulted in $300 milion in overpayments to hospitals and that the majority of over­
payments could be trced to assignment errrs afectig a small number ofDRGs. This report
is one in a series examning assignment accuracy of one of the DRGs identified as having the
highest impact on overpayments under PPS and the gratest potential for cost recovery.
The PPS gamg taes two pricipal forms: optimization and creep. " Optization
strategies adere to codng rules, but maximize hospita reimburements by selecting      ost       the


expensive mnong viable alternative principal diagnoses or adding more seconda diagnoses.
The PPS permts optimiation, which flows frm the basic incentive strctue of the PPS sys­
tem.

 DRG crp " results frm                codg practices which do not conform to codng rules. Sources     of
DRG crp include:

       Mis-specifcation:             The attndig physician wrtes an incolTect pricipal diagnosis
       (defied by the Uniorm Hospita Discharge Data Set (UDS) as " that condition
       established after study to be chiefly responsible for occasioning the admssion of the
       patient to the hospita for care ), seconda diagnoses, or proedures on the attestation
       sheet

       Miscoding:             The hospita assigns incorrct numeric   codes to diseases or proedures
       corrtly attste to by the attndig physician.
       Resequencing:              The hospita substitutes a seconda diagnosis for the corrct   principal
       diagnosis.

Auditig and review               practices seek to curl ilegal crep by identiying discharges in ,?hich
codg rules ar               misapplied or ignored.


Claims processing

Under PPS, the hospita fies a clai for Medcar reimbursement upon dischargig the
beneficiar. At the time of discharge, the attndig physician attests to the principal diagnosis
which caused the patient s adssion to the hospita, seconda diagnoses, and procedurs
(diagnostic and therapeutic) provided. The hospita translates the naIative diagnoses of the
physician s attestation statement into numeric codes based on the International Classification
of Diseases, Ninth Revision , Clinical Modcation (ICD- CM), and prepars a claim. Fiscal
intermedar (F organizations, working under contract with HCFA , enter the hospital' s codes
into the GROUPER computer progr which assigns the appropriate DRG for reimbursement

Hospita reimbursement    is calculated by multiplying the " relative weight " of each DRG
category by a              stadaze
                            amount, as moded by certn hospital-specific factors. The rela­
tive weight of each DRG vares above or below the mean relative weight for all DRGs (ap­
proxiately 1.              00)
                     accordng to the average amount of hospital resoures used by patients in
that diagnostic group. The higher the relative weight, the greater the reimbursement. Mis-as-
signment of the ICD- CM categories, or errneous assignment or sequencing of patient diag­
noses, can thus have signifcant financial implications.
             . ". ..
       :: :::::::::::::::
           ...._..
            - - -------
            ~~~~~         --- .--
                        -----
                     -- ---                -:::
                                      ---- .,
                                ::_.._.._.._
                               ------  ..::::: .....
                                               "".._.._.
                                      ------------
                                              ---
                                              _---------      :;-....

                                                      ::::::::::
                                               .. - ------ -----
                                                       - -              ----:.
                                                            -------------------
                                                                 ---------
                                                               - -- - ----   --------
                                                                           --------  ..---
                                                                               -- ::::----.=-
                                                                                    ------
                                                                                      --   --- ---.=
                                                                                           --      --    =======-
                                                                                                   :--- -:::::::::::::
                                                                                                                   ---------
                                                                                                           -- --------------
                                                                                                         - -----             ----
                                                                                                                      _-._ ---          ---
                                                                                                                                        -----
                                                                                                                                        -......-.




DRG 121

Ths inspection exames errneous assignment in DRG 121 , Circulatory Disorders with
Myocardial Inartion and Cardiovascular Complications. In order to grup to DRG 121 , a
bil must have codes for both (1) a myocaral infartion and (2) a carovascular complica­
tion. Either diagnosis may appear as the principal diagnosis or as a seconda diagnosis. The
order in which they appear doesn t matter.
                                                                                                                                      Relatie Weight

   12 -- ----------- ------ ----------------- ------ ----                                                                            Discharges (10 K)

                                                                                                                                     Chares ($100 M)
                                                                                                                                       .....0.....
                                                                                                                                     Payment ($100 M)


    6 -- -----                                                                     -.e:-
                                                                                 -..-6-..-..-..-..-..-..-..-....
                                                                                                                                    Mea payment ($1    K)



    4 -- ­
    2 -- -­

          198                                    198                                 198                                   1987
                                                              Fisc Yesr


                                                                 Figure 1: DRG 121


The number ofDRG 121 bils and their dollar reimburement has risen steadly thughout the
history of the prospective payment system. Decreases in the relative weight from 1. 8648 to
1.7687 have not offset these incrases. The DRG 121 bils constitute 1.2 percent of dischar­
ges, but 1.8 percent of reimbursement (Appendix A-

Methodology

Ths study used a strtied two-stage                                             select medical
                                                               sampling design based on hospitas to
record for review. The fist stage used simple random smnpling without replacement to
select up to 80 hospitas in each of thee bed size strata: Less than 100 beds (small), 100 to
299 bed (medum), and 300 or more beds (large). The second         tage of the design employed
systematic random sampling to select up to 25 DRG 121 bils from each strta for Medicar
discharges between October 1, 1984 and Marh 31, 1985. (Appendix A­
                                          !::::::::::::::




                                           100 beds




                                        10029 beds



                                         30+ beds


              DRG 121                                                    All DRGs




                                   Figure 2: Sampling frame

The OIG contrcted with the Health Data Institute (HI)       of Lexington, Massachusetts to
reabstrct the medcal record. Upon receipt, the contrctor " blinded" the ICD- CM codes
by coverig them, and   assigned an identification number to each record. An Accredited
Record Technician or Registere Record Admnistrator proficient in ICD- CM codng
reviewed the enti record to substatiate the principal diagnosis, other diagnoses, and proce­
durs indicated by the attendig physician in the naItive attestation form. Any records
which did not support the assigned DRG classification were refeITd to physician reviewers.
The physician reviewer designated the corrct UHDS principal diagnosis, and addtional
diagnoses and/or proedures which' were substantiated by the patient record. The GROUPER
computer progr proessed the reabstracted ICD- CM codes to determe COlTect DRGs.

  fu discussion of the methodology and findings of the contrctor record review ' is available
  the fial report of the National DRG Valdation Study (available from OIG Public Mfai).
The OIG contrcted with BOTEC Analysis of Cabridge, MA to exame this data to identify
sources of assignent elTors and formulate recommendations for recovery of overpayments.
                                 ---..:        ---   ::-::-'     ~~~~ ""'
                                                               '---'              ;.-:
                                                                            -:;: ",:=,,   ~~~~~
                                                                                              ;:' :'-         ':'   ==' :=: .. :




                                                      FINDINGS

Sample characteristics
In Fiscal Year (F) 1985, 96, 443 of the 8. 3 millon prospective payment discharges (1.2 per­
cent) gruped to DRG 121. The National DRG Validation Study estimates that larger hospi­
tas submitted more DRG 121 bils, but that smaller hospitas had a higher proporton of their
bils group to DRG 121. In the fist half ofFY 1985, the 239 hospitals selected in stage-one
of the sample design (the smnpling frame) biled for 222, 396 discharges of which 2, 591 came
frm DRG 121 (1.2 percent). The stratication into bed-size classes ilustrtes the higher
volume of larger hospitas and the higher smnpling frction of smaler hospitals.

The two-stage sample design pennts calculation of separte results for Medicare beneficiares
(the probabilty of something happening to a person) and hospitals (the odds of an event at a
parcular hospita). Therefore the appendices, tables, and chars report individual totals by
both discharges and hospitas.



Of the discharges assigned to D RG 121, 21.1 percent came from small hospitas (c: 1 00 beds),
36. 2 percent from mid-sized hospitas (100- 299 beds), and 42. 7 percent from large hospitas
(300+ beds). Ths distrbution paralels the proportons for all Medicar discharges with slight­
ly more discharges from smal hospitas and slightly fewer from large hospitas. For this in­
spectioR, DRG 121 discharges were chosen radomly from equal number of hospitas from
each strtu, thereby intentionaly oversmnpling small hosp tas and pr04ucing sampling frc­
tions of 13. 3 percent frm sma hospitas, 3. 3 percent from mid-sized hospitas, and 1.5 from
1n
     Tge hospitas.



                                                                                                        Yea

            DRG 121: Urban

            All DRGs:   Urb

         DRG 121: Teaching

         All DRGs: Teaching



             DRG 121: Profi

            All DRGs: Profi               -R




                                                                   Per                                                             100



                                   Figure 3: Hospital demography

The majority of DRG 121 discharges, weighted by discharge, came from urban, nonteaching,
and nonprofit hospitas. (Appendi A- 3)  These findings did not significantly differ from
those in the National DRG Validation Study. (Appendix A-4)
--                          -- - - - - - - - - - - -   -- - - - - -   --




                       DRG 121 National DRG All Medicare Validation Study

             Age (year)
                                                    74.        73.
                                                                                               ------------




                                                                                              not available
                                                                                                              --   - - - - - - - - - - --




                 Sex (%male)                                                54.        46.    42.
             LOS (days)                                                     10.4
             Payment ($)                                                   4894        3115   2985 urban
                                                                                              2381
                 Mortty                                                                 6.4   not avaiable



                                                       Table I: Patient characteristics

The DRG 121 discharges (discharge-weighted) averaged almost the days longer length of
stay in the hospita than either discharges in the National DRG Validation Study or
Medcar discharges. (Appendi A- 5) The fonner discharges were more also more likely to
be mae (Mantel-Haenszel chi-squar 2. 52, df 1, P        25). DRG 121 discharges also
averaged over $1 700 more in payment than discharges in the National DRG Validation Study
and over $2,00 more than discharges for the Medicar population as a whole. (Appendix A-

       Percent
                                                                                                              DRG121

                                                                                                              All DRGs




                          -=100                                               ()29                    30+
                                                                            Bed size

                                                   Figure 4: Coding mis-assignments

DRG assignment errors

Overal, 17. 7  percent of discharges paid as DRG 121 changed to a different DRG after
reabstrction. This rate did not significantly differ than the average for all DRGs in the Na­
tional DRG Validation Study (Mantel-Haenszel chi-square 0. 13, df 1, P         75). Small hospi­
tals had a 30. 8 percent errr rate, 53. 3 percent of the sample s elTors. Mid-sized and large
hospitas had elTor rates of 16. 0 and 18. 0 percent respectively. These findigs parlel the
proportons of the National DRG Valdation Study in which smal hospitals also contrbuted
the largest shar of assignment elTors. (Appendi B­
Analyzed by hospita demogrphy, the proporton of errrs was largest mnong urban, non­
teachig, and nonprofit hospitas. Analysis of hospita demogrphy in the National DRG
Valdation Study indicate that acss all DRGs, hospital charcteristics were not associated
with significant differences in assignment accuracy when controllng for bed size. (Appendix


Patients incolTectly assigned to DRG 121 were younger (75. 5 years to 67. 2 year), and ex­
perienced shortr lengths of stay in the hospita (10. 6 days to 9. 0 days) than those corrctly as­
signed In adtion, incolTectly assigned discharges paid, on averagt?, over $400 more than
those COlTectly assigned All patients in the sample discharged as expird had been incolTectly
assigned (Appendi B-
    Percnt

                                                                        c:     DRG 121 overpayment
                                                                               DRG 121 underpayment
                                                                               All DRGs overpay
                                                                               All DRGs underpay




   .25



                  100              10029                 30+
                                   Bed size
                                    Figure 5: Direction of errors


Direction of errors

Weighted by discharge, 89. 3 percent of errrs        DRG 121 sample resulted in overpay­
                                                in the
ments to hospitas. (Appendi C- l)    This rate signifcantly exceeded the 59. 6 percent of over­
payments reported in the National DRG Validation Study (Mantel-Haenszel chi-squar 5. 21,
df 1 , P .c 0. 025). (Appendi C- 2) Weighted by discharge, however, the rate of overpayment
exceeded that of the National DRG Validation Study only in ur an and nonprofit hospitas.
When combined with the rate of elTor for DRG 121 (17. 7 percent), the effective rate of over­
payment for DRG 121 was 15. 8 percent, compard to an effective overpayment rate of 11.
percent for the National DRG Valdation Study.

Source of errors

In this smnple, 9 of the 15 assignment elTors occUled when the medical records deparent in­
corrctly accepted and coded discharges as DRG 121 and biled accordigly. (Appendix D-
Six errrs, resulted when the medical records deparent corrctly selected codes that did not

group to DRG 121 , but the hospita biled the discharge as DRG 121 anyway. This 51.8 per­
cent of errrs (discharge weighted) due to biling              errrs greatly         exceeds the 8. 8 percent for the
National DRG Validation Study. (Appendix D-

Discharges biled incorrctly had a lower average age (71.4                        year to 64. 7 years) and lengths of
stay alost twce that of dischares with codng elTors (11.0 days to 6. 5 days). Discharges
with bilg elTors averaged nearly $1,00 more than discharges with codng errrs. Biling er­
rors also included al of the cases reportd expird. (Appendi D-

Reasons for assignment errors
Of the 15 elTors in the DRG 121 smnple, al but one resulted from either mis-specification er­
ror by attndig physicians or " other" elTors. When examned using an exclusive analysis
that selects identig the fist errr to occur chronologically, physicians mis-specifed a diag­
nosis in 53. 3 percent of the mis-assignments. Aside from one resequencing errr, the rest of
the errs in ths sample (40. 0 percent) were categorized as " other " elTors. (Appendix E-



                                             Misspeclfcation



                                                 Miscing

                                                 f::::::::::::::::::::::::::::

                                             Resuenclng


                                                    Oter
                   DRG 121                                                                   All DRGs




                                    Figure 6: Reasons for coding

The majority of mis-specifcation elTors by physicians occulTed in smal hospitas. (Appendix
  2J Mis-specifcation elTors were also more likely in nonteaching and nonprofit hospitas.
The bulk of " other " elTors occUld in urban, nonteaching, and nonprofit hospitals. The dis­
charge weighted 50. 8 percent distrbution of " other " errrs exceeded the 13. 8 percent for the
National DRG Validation Study. (Appendix E-

Patients with " other  " errrs were younger (66. 3 year to 74. 3), had a longer average length of
stay (9. 5 days to 8. 1 days) and a higher average payment ($5486 to $3843) than discharges
with mis-specifcation   elTors. (Appendix E-4J
          -- -- ----




Financial effects

                  - - ---
                  --
                 --              --     -
                             --------------------------------
                       --------                                           --- - ---- --- -- --
                                                           -- ---------- ----
                                                                           -------------------------------------------------------




Mter reabstrtion, the average relative weight for DRG 121 discharges in this sample
                                                                                                                                -----------
                                                                                                                                          --------
                                                                                                                                         --      -----
                                                                                                                                                ---  ----------                          ---------- ----
                                                                                                                                                      - -------------- -- --------- -- ----            --- ----- ---- -
                                                                                                                                                                                                           ------     ------------
                                                                                                                                                                                                                        -----
                                                                                                                                                                                                                            --------------------
                                                                                                                                                                                                                                               --- ------ -------
                                                                                                                                                                                                                                                           --- ---
                                                                                                                                                                                                                                                                ----------------------
                                                                                                                                                                                                                                                                                 ----     -------- -------
                                                                                                                                                                                                                                                                                   ----------                               ------ ----
                                                                                                                                                                                                                                                                                                     - ---- -- -- ------------       ----
                                                                                                                                                                                                                                                                                                                                       ----------
                                                                                                                                                                                                                                                                                                                                               -------
                                                                                                                                                                                                                                                                                                                                                    ----- --- -------
                                                                                                                                                                                                                                                                                                                                                                   ---------------- - --
                                                                                                                                                                                                                                                                                                                                                                                       ----- --
                                                                                                                                                                                                                                                                                                                                                                                 --------    --




droppe frm 1.8454 to 1.7298. For the 76 discharges in this smnple, this mnounted to an ag­
gregate drp in relative weight of 8. 7833 (4.4 percent weighted by discharges). (Appendix F-
        Smlllon




            198                                                        198                                                        198                                                       1987                                                      198                                                        198                                                        1990
                                                                                                                                                                                Fiscl Year



                                                                                                                                     Figure 7: Overpayments

Based on the             stadaze
                          mnount for reimbursement in FY 1985 ($2985 urban and $2381
ru),   the average change in relative weight for discharges assigned to DRG 121 resulted in
mean overpayments to hospitas of $601 (smal hospitas), $218 (mid-sized hospitals), and
$83 (large hospitas) on each discharge. Two- thirds of these overpayments came frm small
hospitas. (Appendix F-



Extrpolate to the enti Medcar population, if the rate of elTors and urbanrual discharges
remas constat, mis-assignment ofDRG 121 results in $42. 2 millon anually. Extrpolat­
ing by be siz, mid-sizd and large hospitals together would account for over the- quarers
of the overpayments. (Appendi F-

Correct DRG                      assignments

All the discharges incolTectly assigned to DRG 121 cmne frm Major Diagnostic Category
(MDC) 05, the ciculatory system. The DRG 121 also falls into this MDC. The DRG 121 is
unique in that the attstation must contan both a principal diagnosis of acute myocardial in­
fartion and a carovascular complication mnong its diagnoses, but not in a parcular order.
Reabstraction confied myocaral infarction, but not a cardiovascular complication , in 33.3
percent of assignment errrs. (Appendix G-

These discharges recoded to DRG 122 (relative weight 1.3509). In 20. 0 percent of errrs, the
patient died, reassigning the bil to DRG 123 (relative weight 1.1242). In another 33. 3 percent
          -----------------             ---- --- -- -- --- -- - - - -- -- - -- - -- - -- ------
                                                                                            - ----- ----
                                                                                          - --         -- ------       ----
                                                                                                                        - -- -- -------
                                                                                                            - - ---- ----        - ----- - - -------       ------ --- -- -----
                                                                                                                                                -- -- ------------          - --




of errrs the patient not      actualy suffer a hear attack , but had angina or a cardiac aIhythmia.
(Appendi G-


In adtion, the ICD- CM cods for ischemic hear disease can group to DRG 121 if the
patient subseuently suffers a hear attack within 8 weeks of discharge. However, only one er­
roneous bil caIed such a cod, suggesting                       that such events occur only raely.
       Percent


                                                                                                                                                    DRG 121


                                                                                                                                    f= 0            All DRGs




                 Unneeed admissions                        Poor quality of care                                         Premature dIscharge



                                          Figure 8: Clinical incidents


Clinical review results

The DRG 121 had 2. 3 percent rate of poor quality care. (Appendi H- l) This-rate is less than
hal that in the National DRG Valdation Study. (Appendi H- 2) It found no premature dis­
charges or unnecessar adssions.
                               RECOMMENDATIONS

     The Health Care Financing Admnistration should   dict the peer review organizations
     to review DRG 121 bils for codg accurcy.

     The HCFA should dict the PROs to educate physicians and hospitals about the
     diagnoses that properly grup to DRG 121.

The HCFA disagrees with the fit   recommendation and agres with   the second. The Offce of
Inspector Genera modfied the drt of ths report to accommodte the HCFA comments, but
contiues to believe that implementation of these recommendations could recover $42;2 mi-
lion anualy.
            Appendix A-1: DRG 121 discharges from all PPS hospitals

Fiscal Year                            1984           1985               1986               1987

Relative weight                        864           8454                8145              7687
Number of discharges                    365        96,               113, 963         122, 068
Total charges ($ milion)              370.          722.                896.            022.
Total reimbursement ($ milion)        259.          487.                567.            590.
Average reimbursement ($)               764            567                982                836




                         Appendix A-2: DRG 121 sampling frame
Number                                                    Bed size
                                      .:100               100- 299                300+                 Total

Medicare population                  20, 350                 912                41, 181               96,
Sampling frame                           196                 762                    633                     591
Sample
Sampling fraction (%)                   13.




                  Appendix A- 3: DRG 121 hospital                       demography
Number                               Bed size                                     Weighted percentage
(Percent)                .:100      100- 299      300+          Total     Sample          Discharge     Hospital

Urban                   7 (26.     18 (72.      24 (96.                    (64.             (72.        (52.
Rural                 19 (73.      7 (28.         1 (4.                    (35.             (27.        (47.

Teaching                 2 (7.       1 (4.      19 (76.                    (28.             (35.        (17.
Nonteaching           24 (92.      24 (96.      6 (24.                     (71.             (64.        (81.

Profit                    (15.4)   4 (16.        0 (0.                     (10.              (9.        (13.
Nonprofit             22 (84.      21 (84.      25 (100)                   (89.            (91.         (86.

Total                   26 (100)   25 (100)     25 (100)                   (100)            (100)           (100)
           Appendix A-4: DRG 121 hospital demography comparison
Percent                            Bed size               Weighted percentage
                           -:100   100- 299    300+   Sample      Discharge   Hospital

Urban           DRG 121     26.      72.       96.      64.         72.          52.
                NDRGVS      19.      70.       94.      62.         71.          48.

Rural           DRG 121     73.      28.                35.         27.          47.
                NDRGVS'     80.      29.                38.         28.          52.

Teaching        DRG 121                        76.      28.         35.          17.
                NDRGVS               18.       55.      25.         31.          16.

Non-            DRG 121     92.      96.       24.      71.         64.          82.
teaching        NDRGVS      97.4     81.       44.      74.         68.          83.

Profit          DRG 121     15.      16.                10.                      13.
                NDRGVS               17.                                         10.

Non-            DRG 121     84.      84.      100.      89.         91.          86.
profit          NDRGVS      90.      82.       97.      90.         90.          89.




                   Appendix A-5: DRG 121 patient demography
                                   Bed size                   Weighted average
                           -:100   100-299    300+    Sample     Discharge    Hospital

Age (years)                78.       71.      74.       74.         74.          75.
Sex (% male)               53.       52.      56.       54.         54.          53.
LOS (days)                           10.       11.      10:0        10.4        9.4
Payment ($)                3696     4417      5891     4655        4894       4278
Mortaliy (%)

            Appendix A- 6: DRG 121 patient    demography comparison
                                  Bed size                   Weighted average
                          c:100   100- 299   300+    Sample     Discharge   Hospital

Age            DRG 121     78.      71.      74.       74.         74.          75.4
(years)        NDRGVS      76.      74.      72.       74.         73.          74.

Sex            DRG 121     53.      52.      56.       54.         73.          74.
(% male)       NDRGVS      43.      45.      48.       45.         46.          44.

LOS            DRG 121              10.      11.       10.         10.
(days)         NDRGVS

Payment        DRG 121     3696    4417      5891     4668         4894     4278
               NDRGVS      1849    2923      3807     2860         3074     2508

Mortality      DRG 121
               NDRGVS
                  Appendix B- 1:          DRG 121             assignment errors

Number                        Bed size                                               Weighted percentage
(Percent)          -:100      100- 299               300+           Total    Sample      Discharge      Hospital

Urban              1 (14.      3 (16.             4 (16.                      (16.          (16.         (15.
Rural              7 (36.         0 (0.              0 (0.                    (25.              (7.      (19.

Teaching            0 (0.         0 (0.           4 (21.                      (18.           (9.             (3.
Nonteaching        8 (33.      3 (12.                0 (0.                    (20.4)        (11.         (21.

Profit             1 (25.         0 (0.                                       (12.              (5.      (12.
Nonprofit          7 (31.      3 (14.             4 (16.                      (20.         (18.          (23.

Total              8 (30.      3 (12.             4 (16.                      (19.         (17.          (22.




            Appendix B-2: DRG 121 assignment errors comparison
Percent                                   Bed size                            Weighted percentage
                            -:100         100- 299           300+           Sample     Discharge      Hospital

Urban         DRG 121       14.             16.              16.              16.         16.          15.
              NDRGVS        22.             19.              16.              18.         17.          20.4

Rural         DRG 121       36.                                               25.                      19.
              NDRGVS        23.             16.              22.              21.         20.          21.

Teaching      DRG 121                                        21.              12.
              NDRGVS        20.             20.              15.              17.4        17.          19.

Non-          DRG 121       33.             12.                               20.4        11.          21.
teaching      NDRGVS        23.             17.              17.              20.         19.          20.

Profit        DRG 121       25.                                              12.                       12.
              NDRGVS        23.             18.              18.             20.          19.          21.

Non-          DRG 121       31.             14.            16.               20.         18.           23.
profit        NDRGVS        23.             18.            16.               19.4        18.           20.

Total         DRG 121       30.             12.          16.                 19.         17.           22.
              NDRGVS        23.             18.          16.                 19.         18.           20.
(%)




      Appendix B- 3:     DRG 121 assignment errors by patient demography
                                     Bed size                  Weighted average
                             -:100   100- 299   300+   Sample     Discharge   Hospital

Age          Correc          80.       72.      75.      75.         75.
(years)      Incorrec        75.       61.      68.      70.         67.          69.

Sex (%       Correct         55.       54.      52.4     54.         53.          54.
male)        Incorrect       50.       33.      75.      53.         54.          48.

LOS          Correct                   10.      11.      10.         10.
(days)       Incorrec                           11.4

Payment      Correct         3876     4331      5778    4695        4853      4325
             Incrrect        3290     5049      643     4494        5290      4368

Mortality    Correct
             Incrrec         12.       66.               20.         26.          28.
                      Appendix C-1:           DRG 121 direction of error
Number of                         Bed size                                            Weighted percentage
overpayments           oe100      100- 299             300+          Total    Sample       Discharge      Hospital
(Percent of errors)

Urban                 1 (100.     3 (100.            3 (75.                    (87.          (89.             (96.
Rural                 7 (100.                                                   (100)        (21.             (51.

Teaching                                             3 (75.                    (75.          (32.             (11.
Nonteaching           8 (100.     3 (100.                                       (100)        (57.             (84.

Profit                1 (100.                                                   (100)        (21.             (51.
Nonprofit             7 (100.    3 (100.             3 (75.                    (92.          (89.             (96.

Total                 8 (100.    3 (100.             3 (75.                    (93.          (89.             (96.




            Appendix C-2: DRG 121 of direction of error comparison
Percent                                     Bed size                             Weighted percentage
of errors                       oe100       100- 299          300+           Sample     Discharge      Hospital

Urban          DRG 121           100           100            75.              87.         89.          96.
               NDRGVS           53.           60.4            57.              58.         57.          56.

Rural          DRG 121                                        75.              75.         21.          51.
               NDRGVS           66.           57.             65.              64.         62.          63.

Teaching       DRG 121                                        75.              75.         32.          11.
               NDRGVS           66.           59.             56.              57.         59.          62.

Non-           DRG 121           100           100                              100        57.          84.
teaching       NDRGVS           64.           59.         59.                  61.         60.          61.

Profit         DRG 121           100                                           100         21.          51.
               NDRGVS           68.           55.         63.                 60.          61.          63.

Non-           DRG 121           100           100        75.                 92.          89.          96.
profit         NDRGVS           63.           60.         57.                 60.          59.          61.

Total          DRG 121           100          100         75.                 93.          89.         96.
               NDRGVS           64.          59.          57.                 60.          59.         61.
      Appendix C-3: DRG 121 direction of error by patient demography
                                Bed size                    Weighted average
                        -=100   100- 299    300+    Sample     Discharge   Hospital

Age         Overpaid     75.      61.       69.       71.         67.          69.
(years)     Underpaid                       65.       65.         27.          10.

Sex         Overpaid     50.      33.       66.       50.         51.          47.
(% male)    Underpaid                      100.      100.         42.          15.

LOS         Overpaid
(days)      Underpaid                       21.       21.

Payment     Overpaid    3290     5049       5304     4098        4787      4182
            Underpaid                      10020    10020        4279      1583

Mortalit    Overpaid                not available
            Underpaid
            Appendix D- 1: DRG 121 hospital                         department making error

Coding depart-                     Bed size                                               Weighted percentage
ment errors              100       100-299                 300+          Total    Sample       Discharge     Hospital
(Percent of errors)

Urban                  1 (100)         1 (33.            2 (50.                    (50.          (54.            (70.4)
Rural                 5 (71.4)                                                     (71.4)        (15.            (36.

Teaching                                                 2 (50.                    (50.          (21.4)           (7.
Nonteaching           6 (75.           1 (33.                                      (63.          (27.            (49.

Profit                 1 (100)                                                      (100)        (21.            (51.
Nonprofit             5 (74.           1 (33.            2 (50.                    (57.          (49.            (57.

Total                 6 (75.           1 (33.            2 (50.                    (60.          (49.            (57.

Balance of errors made by billng department.


 Appendix 0.2: DRG 121 hospital                          department making error comparison
Percent coing                                   Bed size                             Weighted percentage
department                        100           100- 299          300+           Sample      Discharge     Hospital
errors

Urban            DRG 121          100             33.             50.              50.         54.          70.4
                 NDRGVS          89.              88.             90.              89.         89.          89.

Rural            DRG 121         71.                                               71.4        15.          36.
                 NDRGVS          94.              95.             90.              94.         93.          94.

Teaching       DRG 121                                            50.              50.         21.
               NDRGVS            91.              92.             89.              90.         91.          91.

Non-           DRG 121           75.              33.                             63.          27.          49.
teaching       NDRGVS            93.              90.             92.             92.          91.          92.

Profit         DRG 121            100                                              100         21.          51.
               NDRGVS            86.              92.4        81.                 89.          86.          87.

Non-           DRG 121           74.             33.          50.                 57.          49.          57.
profit         NDRGVS            94.             90.          90.                 92.          91.4         92.

Total          DRG 121           75.             33.          50.                 60.          49.         57.
               NDRGVS            93.             90.          90.                 91.          91.         92.
  Appendix D- 3: DRG 121 hospital     department making error by patient
                             demography
                             Bed size                     Weighted average
                       100   100- 299    300+     Sample     Discharge   Hospital

Age         Coding    75.      69.       71.        73.         71.          72.
(years)     Billng    76.      57.       65.        66.         64.          68.

Sex         Coding    66.                50.        55.         35.4         42.
(% male)    Billng             50.        100       50.         60.          32.

LOS         Coding
(days)      Billng                       18.                    11.

Payment     Coding    3074    5534       5254      3832        4895      4220
            Biling    3940    4807       7713      5486        5865      4819

Mortality   Coding
            Billing   50.       100                 50.         46.          58.4
                        Appendix E-1: DRG 121 reasons for errors

Number                                              Bed size
                                         -=100       100- 299       300+             Total   (Percent)

Mis-specification
        Principal diagnosis                                                                    (20.
        Secndary diagnosis                                                                     (33.
Miscoding                                                                                        (0.
Resequencing                                                                                     (6.
Other
     Admiting diagnosis used                                                                     (6.
        No hospital codes                                                                        (6.
        Multiple attestations                                                                    (6.
        Other                                                                                  (20.

Total                                                                                         (100.




   Appendix E-2: DRG 121 reasons for errors by hospital demography
Number                          Mis-specification    Resequencing            Other
(Percent)

-=100 beds                          5 (62.              1 (12.         2 (25.
100- 299 beds                       1 (33.               0 (0.         2 (66.
300+ beds                           2 (50.               0 (0.         2 (50.


Urban                               4 (50.               0 (0.         4 (50.
Rural                               4 (57.              1 (14.         2 (28.


Teaching                            2 (50.               0 (0.         2 (50.
Nonteaching                         6 (54.               1 (9.         4 (36.4)


Profit                              1 (100)              0 (0.             0 (0.
Nonprofit                          7 (50.                1 (7.         6 (42.


Total                              8 (53.                1 (6.         6 (40.
              Appendix E- 3: DRG 121 reasons                  for errors comparison
Percent                                   Bed size                     Weighted percentage
                           .c100         100- 299      300+         Sample        Discharge   Hospital

Mis-speci-       DRG 121   33.                          13.           53.           46.        51.
fication         NDRGVS                                               48.           47.        48.

Resequencing     DRG 121   12.
                 NDRGVS    31.             24.         24.            27.           25.        28.

Other            DRG 121   25.             66.         50.            40.           50.        42.
                 NDRGVS                    15.          14.           12.           13.        11.




Appendix E-4: DRG 121 reasons for DRG assignment errors by patient
                                         demography
                             Narrative               Resequencing           Other

Age (years)                        74.                    69.               66.
Sex (% male)                       50.                     100              50.
LOS (days)
Payment ($)                        3843                  3734               5486
Mortality (%)
              Appendix F-1: DRG 121 corrected relative weights

Relative                                Bed size                   Average-
weight                        100       100- 299          300+       Total

Avera
Paid                          8454         8454       8454
                                                    1 .               8454
Correct                       6092         7679       8172            7298
Difference                    2362         0775       0282            1156

Total
Paid                       47. 9800     46. 1350   46. 1350       140. 2500
Corrected                  41. 8392     44. 1975   45. 4300       131.4667
Diference                      1408        9375        7050           7833

(Percent)                    (12.          (4.            (1.         (4.

* Discharge weighted.




               Appendix F-2: DRG 121 corrected reimbursement
                                        Bed size                   Average­
                              100       100- 299          300+       Total
Avera
Paid                           656          167           439          082
Correc                         060          950           356          764
Diference                      596          217                        318

Total
Paid                       121 069      129, 182   135, 980       386, 231
Correct                     92, 899      82, 677    75, 613       255, 757
Diference                   28, 170      46, 505    60, 367       130,474

(Percent)                    (23.         (36.       (44.4)

* Discharge weighted.
               Appendix F- 3: DRG 121 estimated overpayments
Fiscal Year             Reimbursement          Overpayment
                             ($ milion)           ($ milion)

1984                             259.                   11.4
1985                             487.                   21.
1986                             567.                   25.
1987                             590.                   26.
1988 est.                        744.                   32.
1989 est.                        852.                   37.
1990 est.                        959.                   42.

Overpayment is calculated as 4.4 percent of reimbursement.
Estimates based on linear regression.
 Appendix G- 1:       Major Diagnostic Categories for discharges incorrectly
                                      assigned toDRG 121
    MDC                                          Bed size
                                        .:100   100- 299    300+   Total

05 Circulatory

            Appendix G-2:            DRGs frequently miscoded to DRG 121
    DRG                                         Bed size
                                        .:100   100- 299    300+   Total   (Percent)

122 uncomplicated   myocardial
    infarction                                                              (33.
123 myocardial infarction, expired                                          (20.
138 arrhythmias                                                             (13.
140 angina                                                                  (20.
    other                                                                   (13.

    Total                                                                  (100.
                    Appendix H- 1:            DRG 121 clinical incidents

Number                          Bed size                                                Weighted percentage

(Percent)            oe100      100- 299                300+           Total    Sample       Discharge     Hospital

Unnecessary           0 (0.          0 (0.              0 (0.                     (0.           (0.             (0.
admissions

Poor quality          1 (3.          1 (4.              0 (0.                     (2.           (2.             (3.
of care

Premature             0 (0.          0 (0.              0 (0.                     (0.           (0.             (0.
discharge




               Appendix H-2:    DRG 121 clinical incidents comparison
Percent                                      Bed size                              Weighted percentage
                              oe100          100- 299           300+           Sample      Discharge     Hospital

Unnecessary       DRG 121
admissions        NDRGVS      12.              10.                               10.          10.         11.

Poor quality      DRG 121
of care           NDRGVS       11.

Premature         DRG 121
discharge         NDRGVS                                         0.4                                        1.4
